                     United States Attorney Richard S. Hartunian
                            Northern District of New York

FOR IMMEDIATE RELEASE                                         CONTACT:       John Duncan or
13 April 2012                                                                Tamara Thomson
http://www.usdoj.gov/usao/nyn                                                (315) 448-0672


                                        NEWS RELEASE

       Richard S. Hartunian, United States Attorney for the Northern District of New York,

announced today that JANICE WATTS, age 49, of Syracuse, New York, was sentenced today in

U.S. District Court in Utica, New York in connection with her guilty pleas to Aggravated Identity

Theft and for Making a Materially False Statement to the Social Security Administration. The

Honorable David N. Hurd, U.S. District Judge sentenced Watts to 3 years incarceration to be

followed by a term of supervised release for three years. The Court also imposed a $300 special

assessment.

       On November 14, 2011, WATTS admitted, in violation of 18 U.S.C. §§ 1028A and 1001,

that on or about May 23, 2011, posing as her recently deceased mother, she went to the Social

Security Administration with four forms of her mother’s identification, including a photo, and

attempted to get her mother’s Social Security benefits reinstated. WATTS also provided the Social

Security Administration staff with a statement falsely certifying that her mother was alive and well,

and signed the statement using her mother’s name. A Social Security employee noticed that

WATTS, 49, did not resemble photo image of her then deceased 68-year old mother, Lottie Watts

and alerted investigators.

       This case was investigated by Special Agent Michael McCole of the Social Security

Administration Office of Inspector General.

       This prosecution was handled in the United States Attorney’s Office by Assistant U.S.

Attorney Tamara B. Thomson. Further information can be directed to the United States Attorney’s
                             -2-

Office at (315) 448-0672.



                            ###
